No.

3 the Supreme Court

of the Eniteb Otate.0
JASON EDWARD RHEINSTEIN,
Petitioner,
LA

ATTORNEY GRIEVANCE COMMISSION
OF MARYLAND,
Respondent.
APPLICATION FOR EXTENSION OF TIME TO
FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

JASON EDWARD RHEINSTEIN
P.O. Box 1369
Severna Park, MD 21146
(410) 340-8396
j ason@jer-consultina.com
Petitioner Pro Se
June 7, 2019

To the Honorable Chief Justice John G. Roberts, Jr., as Circuit
Justice for the United States Court of Appeals for the Fourth
Circuit:
Petitioner, Jason Edward Rheinstein, pursuant to Supreme Court
Rule 13.5, respectfully requests a 45-day extension of time, to and
including July 25, 2019, to file a petition for writ of certiorari. In
support of this application, Petitioner states as follows:
1.

The United States Court of Appeals for the Fourth Circuit

issued its panel decision on February 5, 2019. The decision is attached
hereto as Exhibit 1. Petitioner timely filed a petition for panel
rehearing or rehearing en banc, and the Fourth Circuit denied that
petition on March 11, 2019. That decision is also attached as Exhibit 2.
Absent an extension of time, the petition for writ of certiorari would
therefore be due on Monday, June 10, 2019. Petitioner files this
application within 10 days of the petition due date because, over the
past several weeks, Petitioner and Respondent had been in what
Petitioner believed to be promising settlement negotiations that would
have resulted in the resolution of the case and eliminated the need to
file a petition. On Wednesday, June 5, 2019, within the final ten-day
period before the petition due date, those negotiations ceased without
1

resolution of the case. Petitioner has limited resources and is preparing
and financing the production of the petition on his own. Petitioner
needs additional time to complete the petition and raise the more than
$4,000 necessary to hire a commercial printer to produce the petition in
accordance with the requirements of Rule 33.1.
The Court to which certiorari would be directed is the United
States Court of Appeals for the Fourth Circuit. This Court would have
jurisdiction to review the judgment of the United States Court of
Appeals for the Fourth Circuit under 28 U.S.C. ยง1254.
The primary issue to be presented by the petition is the
subject of a circuit split, and therefore, may be considered to be a
question of exceptional importance.' See e.g., Fed. R. App. P.
35(b)(1)(B). Because the case presents a question that is the subject of
a circuit split, it is in the public interest to grant the extension as to

1

The issue is whether once an appeal of a remand "order" has been
explicitly authorized by 28 U.S.C. ยง1447(d), the court of appeals has
jurisdiction to review the entire order and all of the legal issues entailed
in the decision to remand, as the majority of circuits to consider the
issue had previously held, or whether the court of appeals' jurisdiction
to review a remand order is limited to a specific portion of that order as
the Fourth Circuit held in this case.

ensure that this Court has the opportunity to consider whether to
undertake review and resolve a circuit split on an issue that is likely to
recur in future cases. See e.g., Comments to Fed. R. App. P. 35
("Intercircuit conflicts create problems. When the circuits construe the
same federal law differently, parties' rights and duties depend upon
where a case is litigated...").
4.

As noted supra, the requested 45-day extension is necessary

for Petitioner to complete his petition and finance its production. No
meaningful prejudice will result to the Respondent or anyone else if the
Court grants the requested extension. By contrast, the Petitioner would
be severely prejudiced if he is denied the opportunity to present his
petition to this Court.
CONCLUSION
For the reasons set forth herein, Petitioner respectfully requests a
45-day extension of time, to and including July 25, 2019, to file a
petition for writ of certiorari.

3

Dated: June 7, 2019

Respectfully submitted,

JASON EDWARD RH INSTEIN
P.O. Box 1369
Severna Park, MD 21146
(410) 340-8396
jason@jer-consultina.com
Petitioner Pro Se

